                                                                 .. ..   .. \ ,   :"" '. .?.:.




Department of Health and Human 
                                 Servces
                OFFICE OF

          :INSPECTOR GENERAL




                                                                                  . rl




                             l! SERVIC'l'n


                                             Richard P. Kusserow
                                             INSPECfOR GENERA
                           -'if"d
                                                 NOVEMBER 1991
  . ,.?);
.;;j: '' ..:/:'
   - ..:. '       . .-
            . :. ';, :,'                       . .    ..    ..
                                                           . .:-:   :'"   ..               . .: .                              ' .




                                                     OFFICE OF INSPECfOR GENERA
                                                                                                                   452,
                           The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-
                                                                                                                          as

                                                                                                                    ' (RRS)
                           amended, is to protect the integrty of the Department of Health and Human Servce
                                                                                                                     This'
                            rognims as well as the health and welfare of beneficiaries served by those programs.
                                                                                                                   , and
                           statutory mision is carried out through a natiOliwidenetwork of audits , investigations




                                                           offiCrOFAUDIT SERVICE




       "i;(;;)"             General , Offce of' Evaluation"and' InsJ?ettions :and Natalie Coen; DeputyRegional InspeCtor
                           ;General, Offce ofEvaluatioo: and Inspections , Region V. Participating in this project were
                           ' the following people:

                                    ChcaI!O,
                                                                                                  Headquaers
                            John M. Traczyk (Project Leader)                                      W. Mark Krushat
                             Thomas F. Komaniecki (Lead Analyst)                                  Wayne A Powell
                             Kate McFadden
Department .of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL





        CARRIER SHOPPING

                   A MANAGEMENT ADVISORY REPORT




         l! st;RVIC'l'S.


                            Richard P. Kusserow
                            INSPECTOR GENERAL

        -'if"dIG                  OEI- 05-91- 003
               EXECUTIVE SUMMARY

PUROSE
To determine if point of sale encourages Medicare bilers to shop for the best paying
carner.

BACKGROUN
Through repeated contacts with the Medicare carriers , suppliers learn which carriers
pay the most for a medical supply item. They also learn just how much of a particular
medical supply each carrier wil allow before stopping or cutting back on payments.
Armed with information collected from carrier shopping, suppliers use point of sale to
turn that information into profits at the expense of the Medicare program.

Point of sale policies hold that the site where the medical supplier met with the
beneficiary or received the beneficiarys call determines which carrier will have
jurisdiction and process the claim. This enables suppliers to elude Medicare payments
and safeguards by establishing multiple business locations in multiple carrier
jurisdictions.

This study looked at Medicare payment for medical supply items. We did not
examine the extent of this problem in the areas of durable medical equipment
prosthetics or orthotics.

FININGS
In   1989 carner shopping ma      have reslted in at least      $22   million in excess   payents.
Point of sale compromises carner program safegurds.

Point of sale increases the rik   of fraud abuse and         waste.

RECOMMNDATION

        The Health Care Financing Administration (HCF A) should have all bils for
        medical supplies submitted to the carrier having jurisdiction over the
        beneficiary s home rather than point of sale.

This change in policy would have avoided the nearly $22 millon Medicare lost in 1989
due to point of sale policies. Additional losses could also have been avoided if the
same policy were applied to all durable medical equipment , prosthetics , orthotics and
supplies.
AGENCY COMMNT

The HCFA and the Assistant Secretary for Planning and Evaluation (ASPE) were
asked to comment on the draft of this report. Both ASPE and HCF A concur with our
recommendation. We are pleased that we have reached agreement on this important
policy and that HCF A is planning to modify its regulations. The full text of ASPE'
and HCF A' s comments are contained in Appendix A.
                                   ..........................................
                             ................................................
                                                           . . . . . . . . . . . . . . . . ..
                                                                                   .. ..               .. .. .. .. ..
                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ... ... ... ... ... ... . . . . . .      . ..
                                                                                                             .. ... .. . ..
                                                                                                                          . ..
                                                                                                                             . ... ..... ... . . ..




                       TABLE OF CONTENTS

                                                                                                                                          PAGE



EXJC1
INODUCfION
   Purpose

   Background

   Methodology                                                                                                 . . . . . . . . . . . . . . . 2


FINrnGS ......................................................                                                                                        4


   In 1989 ,carrier shopping may have

   resulted in at least $22 milion

   in excess payments. ............................................. 4


   Point of sale compromises carrier

   program safeguards. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


   Point of sale increases the risk of

   fraud , abuse and waste. .......................................... 6


RECO                A110N ............................................                                                                                8


APPE

   Draft Report Comments and OIG Response.
                         INTRODUCTION


PUROSE
To determine if point of sale encourages Medicare bilers to shop for the best paying
carrIer.

BACKGROUN
Supplementary Medical Insurance , commonly referred to as Part B of the Medicare
program , assists patients in paying for medical servces and supplies. Part B helps
patients pay for physician servces and other medical servces including medical
supplies.

The term medical supplies , as used in this report , is limited to supplies biled to
Medicare under procedure codes A4000 through A4999. Medicare payments for these
supplies have increased by 75 percent during the period 1987 through 1989. In 1987
Medicare paid $232 millon for medical supplies. In 1989 , program spending had risen
to $407 milion.

Medical supplies represents a small portion of the $3 bilion annual market which is
composed of durable medical equipment , prosthetics , orthotics and supplies
(DMEPOS). While this study focuses on medical supplies , the policies and procedures
and the problems which accompany them are representative of problems encountered
by Medicare in other areas of DMEPOS.

The Health Care Financing Administration (HCF A) manages the Part B program and
administers benefits with the assistance of contractors called carrers. Each carrer is
responsible for the adjudication of claims submitted to them by suppliers located
within the carrier s geographic servce area.

To clear up jurisdictional problems which occur on some medical supply claims
HCF A developed a claims processing policy known as point of sale jurisdiction. Point
of sale requires suppliers to submit their claims to the carrier servicing the geographic
area where the beneficiary s order for medical supplies is received. It has been
hypothesized that point of sale permits large suppliers to shop around and locate their
business operations in areas servced by a carrier that pays more and/or has more
liberal coverage policies.
The HCF A and carriers determine which medical supplies wil be covered and under
what circumstances payment wil be made. The carriers , with guidance from HCF A,
also:

       decide how much will be paid for each medical supply item; and

       establish the volume and number of each medical supply the Medicare program
       will buy for each beneficiary in a given period of time.

Different approaches to pricing have resulted in considerable payment variance for
medical supplies among the carriers. The policies and procedures of one carrier do
not necessarily mirror another s practice. Each carrier has established their own
system for assigning provider numbers used by bilers. Each maintains their own
computer system for adjudicating claims.

METHODOWGY
Both qualitative and quantitative data were used to prepare this report.   To gather
qualitative information , discussions were held with 11 carriers concerning their
experiences in adjudicating medical supply claims. Selection of the carriers was not
random. Carriers in 8 of HCF A' s 10 regions were selected to participate in this study
because they process a large volume of claims. Three others were selected due to
their proximity to the HCF A regional office.

Quantitative data pertaining to medical supplies    was obtained from HCF A' s Part B
Medicare Annual Data      (BMA) file for 1989.     Only national procedure codes ranging
from A4000 - A4999 were reviewed in our data analysis.         In 1989 ,   149 different
procedure codes in this range were biled to Medicare.       These 149      codes were selected
for indepth analysis for this study. No other procedure     codes were used.


Resident carrier , as used in this report , refers to the carrier having jurisdiction for
processing claims in the geographic area in which the beneficiary resides.         Outside
carrier refers to carriers outside the geographic area of the beneficiary s residence.

The BMA file was used to identify beneficiaries who had medical supply items
(A4000 - A4999) submitted on their behalf to outside carriers. A total of 81 159 line
items were analyzed. Using zip code information , we determined that 20 344 of the
   159 line items were paid by an outside carrier. The number and dollar value of
medical supplies paid by outside carriers was determined (See Table 1). The average
amount payable for each medical supply by the resident carrier was also determined.
The difference between what was paid by outside carriers and what would have been
paid for the medical supply items by the resident carrier is reported in this study. In
some cases , the BMAD file contained no information on resident carrier pricing.
When this occurred , the original amount allowed was used in our calculations.
Claims submitted on behalf of railroad retirees were not included in our analysis. We
also eliminated 87 line items from our analysis because we could not identify the
Table 1





resident carrier; consequently, the $407 milion paid for medical supplies was reduced
to $406 milion in our final analysis reported in the findings.

The number of beneficiaries who had medical supply claims submitted to outside
carriers was further refined by identifying beneficiaries who reside in counties
bordering on the outside carrier. We also considered the migration habits of
beneficiaries. This analysis was conducted on a sample of 300 line items. The medical
supplies beneficiaries purchased in an adjoining State and the migration habits of
some beneficiaries were taken into consideration before any projections were made.

We also analyzed our sample to determine the impact of End Stage Renal Dialysis
(ESRD) patients on our projections. This analysis indicated that more than half
(55%) of all items listed by HCFA as ESRD medical supplies were paid by the
resident carrier. The prevalence of carrier shopping among ESRD patients appears to
be no different than for non- ESRD patients; consequently, projections reflected in this
inspection include ESRD patient data.
                                                      FINDINGS

Finding #1: In 1989                 , caer shopping may have resulted in at least $22 mion
excess payments.

In 1989 , Medicare paid $406 milion for medical supplies biled under procedure codes
A4000 through A4999. Approximately 43 percent of this $406 milion , or $175 milion
was paid by outside carriers. Resident carriers processed 75 percent of medical supply
items and accounted for 57 percent of the payments. The remaining 25 percent of
medical supply items were processed by outside carriers and accounted for 43 percent
of the payments.

                                                                                     Our analysis indicates that it
                                                                                     may be financially
                 Carrier Selection and                                               advantageous for bilers of
                   Payment Levels                                                    medical supplies to bil an

                                                                                     outside carrier rather than the
                                                                                     resident carrier. The 149
                                                                                     different medical supply items
     'OO'd.                              'd.	                                        biled to Medicare    in 1989 and
                                                                                     described by procedure codes
                                                                                     A4000 through A4999 are , by



                   Total
               Payments
                                43%
                         Outside Carrier
                                                         Total
                                                        Services
                                                                  Outside Carrier
                                                                        25%	
                                                                                     and large , inexpensive
                                                                                     disposable items , widely
                                                                                     available through a number of
                                                                                     diverse sources , including mail
                                                                                     order houses. The beneficiary,
                                                                                     in most cases , would have no
Reside carers account for     57%   of medical supply   paymts and proces      75%   reason to purchase these items
1M   ilem billed Outside carrers account for    43%   of paymts but only proces      outside their resident Medicare
25% of medical supply ilem.
                                                                                     carrier s jurisdiction.

Our analysis of the 1989 BMA fie for procedure codes A4000 - A4999 indicates that
excess payments totalling at least $22 milion l were made by the Medicare program in



      The total paid by outside carriers for medical supplies was $175 084 800. To determine how
much would have been paid if the beneficiary s residence carrier had paid for the medical supplies
instead of an outside carrier , we used the average allowed for a HCPCS by the beneficiary s residence
carrier. In cases where the beneficiary s residence carrier did not pay for a specific HCPCS , the original
amount allowed for that HCPCS was used to determine what would have been paid, Using this
method , the total amount that would have been paid was $153 256 300, The amount of payment made
in excess of what would have been paid by the beneficiary s residence carrier was $21 832 600,
1989. These excess payments would not have occurred if the medical supplies were
paid by the carrier having jurisdiction over the beneficiary s residence.


Finding #2:     Point of sale compromies   caer program safeguards.
All of the carriers we intervewed believe that Medicare s point of sale     policy
detrimental to the program. The carriers believe that point of sale:

        results in excessive payments;

        enables suppliers to avoid close carrier scrutiny;

        inhibits their ability to make medical necessity decisions; and

        contributes to duplicate payments for medical supplies.

Carriers report that they receive requests from suppliers , trade publications and
consultants concerning their medical supply fee schedules , prevailing charge rates and
coverage policies. Suppliers then use the information they gain from pollng the
carriers to decide where to set up business. Establishing an office in a carrier
jurisdiction can be easy and relatively inexpensive. Telephone answering servces , call
forwarding and mail drops allow suppliers to ostensibly conduct business in one
carrier s jurisdiction , while its operations are actually based in another carrier
jurisdiction.

Carriers feel that suppliers take advantage of jurisdictional loopholes , created by point
of sale , to bil carriers that either pay the most or have the most liberal coverage
policies. All 11 carriers believe that suppliers use point of sale to get their claims
the carrier which wil benefit them financially. Many of the carriers believe that point
of sale has financially harmed the Medicare program.

Point of sale enables suppliers to establish multiple business locations in multiple

carrier jurisdictions. These multiple locations enable some suppliers to manipulate
carrier program safeguards. Carriers report that some suppliers find out a carrier
tolerances for a medical supply item and then bil up to that tolerance. When one
carrier s tolerance level is reached , suppliers simply change carriers and bil until that
carrier s tolerance is reached. Suppliers placed on pre or post- payment review by one
carrier often establish a new base of operations in another , unsuspecting, carrier
jurisdiction.

Many carriers attempt to contact their counterparts in other parts of the country to be
on the alert for problem suppliers who leave their jurisdiction. Their efforts to track
and control fraudulent and abusive suppliers are hampered by point of sale and the
ease with which suppliers can conceal their identity by doing business under another
name.
Point of sale also hinders carrier efforts to ensure that the number of medical supplies
provided to a beneficiary are reasonable and medically necessary. The accuracy of
payments made for medical supplies depends , to a great extent , on Medicare carrier
systems and personnel' s ability to identify suspect services and intervene in their
payment. Point of sale results in carriers receiving claims from all over the United
States. The carriers who receive claims on behalf of beneficiaries residing outside
their jurisdiction have no payment history or other information on which to make
coverage or use decisions. This makes review of claims for medical necessity very
complex , costly and time consuming, often relying on coordination of efforts and
information by more than one carrier.

Finally, point of sale increases the risk of duplicate payments. Eight of 11 carriers
have found evidence of duplicate biling. One of these carriers has evidence indicating
that duplicate payments are being made by carrers for medical supplies provided to
beneficiaries receiving Medicare skilled nursing benefits. The most common duplicate
                                fraudulent suppliers that fragment or unbundle
biling cited by carriers involves
medical supplies sold in kits. The kit is biled to one carrier and individual
components of the kit are biled to another. Carriers believe that duplicate payments
caused by unbundling would be less likely to go undetected if current point of sale
policies were abandoned by Medicare.

The Medicare program has paid at least $22 milion in excess payments due to point
of sale polices which allow large suppliers to shop around and locate their business
operations in areas serviced by carriers that pay more and/or have more liberal
coverage policies. Point of sale policies have also made the Medicare program
vulnerable to duplicate payments and supplier actions which circumvent carrier
utilization safeguards. Duplicate payments and inability of carriers to control use wil
add to the amount of money Medicare has lost under the current point of sale policy.


Finding #3:   Point of sale increases the rik   of fraud,   abuse and waste.

Differences in carrier reimbursement rates for medical supplies has led to a number of
schemes designed to financially enrich some suppliers. One such scheme involves the
purchase of sales receipts from suppliers in lower paying carrier jurisdictions. These
sales are then submitted for reimbursement to higher paying carriers.

Another scheme , investigated by the Offce of Investigations (01), involved a supplier
that made initial contacts with beneficiaries at their homes. The first bil for medical
supplies was sent to the carrier having jurisdiction for the beneficiary s residence. In
subsequent months , beneficiaries received calls from company offices in other States.
Bills were then submitted to the carrier having jurisdiction of the office where the
phone call was made. By rotating biling through four different carriers , this supplier
not only was able to bil the best paying carriers ,   but also avoided detection for
providing supplies in excess of patient needs. The scheme was uncovered by the
carriers but their efforts were hindered by the number of different aliases and provider
numbers used by the supplier.

Other schemes investigated by or involve medical suppliers who not only
circumvented program safeguards but also blatantly falsified c1aims One criminal case
involved $4 million in Medicare payments for incontinence supplies. These
incontinence supplies turned out to be no more than diapers and 35 to 60 cents worth
of plastic gloves , towellettes and iodine swabs in a plastic bag. The or found that as
carriers stopped paying or cut payments because the volume of servces being
provided to individual patients appeared excessive ,   the supplier simply moved to
another State and began billng another carrier with a new provider number.

The or has also successfully prosecuted suppliers who fraudulently received duplicate
payments by biling one carrier for medical supply kits and another carrier for the
individual components in the kits. Other cases involving duplicate payments
kickbacks , forged certificates of medical necessity and shady business arrangements are
under investigation.
                    RECOMMENDATION

The current system for determining carrier jurisdiction for the payment of medical
supplies results in a financial loss to the Medicare program.

      The HCF A should have all bils for medical supplies submitted to the carrier
      having jurisdiction over the beneficiary s residence rather than point of sale.

Additional savings would also accrue to the Medicare program if the same policy were
applied to all of the items considered DMEPOS.


AGENCY COMMNT ON lHS REPORT

The HCFA and the Assistant Secretary for Planning and Evaluation (ASPE) were
asked to comment on the draft of this report. Both ASPE and HCF A concur with our
recommendation. We are pleased that we have reached agreement on this important
policy and that HCF A is planning to modify its regulations. The full text of ASPE'
and HCF A' s comments are contained in Appendix A.
     APPENDIX A





Draf Report   Comments and OIG Response
                                                                            .'                .'.
                                                                                         : - ") -:





        DEPARTMENT OF HEALTH &. HUMAN SERVICES             OfC8 of the Secetay

(1-                                                        Washington . D. C.    20201



                                     AUG     1991




                                                                                         : --., Ir
'
  TO:          Richard P. Kusserow                                                           1­
                                                                                .. J
               Inspector General


  FROM:        Assistant Secretary for
               planning and Evaluation

                                                                            C..
  SUBJECT:     OIG Draft Report: "Carrier Shopping"
               (OEI-05-91-00043) --CONCUNCE WITH COMMNT

  I concur with the draft Office of Inspector General (OIG) report

  entitled "Carrier Shopping" which concludes that the current

  system for determining carrier jurisdiction for the payment of

  medical supplies results in a financial loss to the Medicare

  program.
  In order for the r 2port to be consistent with a HCFA proposed
  rule on this subj ect (i. e., Carrier Jurisdiction forClaims for
                                                         Supplies,
  Durable Medical Equipment, Prosthetics, Orthotics andClaims,
  and Clarification of Other Issues Involving Supplier
  BPO--102-P), I recommend that references to " point of delivery"
  in the OIG report be changed to "beneficiary residence.     Given
  that the two references reflect the same meaning, this change
  simply cuts down" on any confusion that might result by using

  different references.


  If you have any questions, please contact Elise   D. smith at
  245-1870.


                                  rt()Ai?JV
                                     in . Gerry



                                        A­
.--                                                                  ._-: = =?
                                                                     ::     .... ' --_-
                                                                            ,,.,-..-,
                                                                                   "" .      - :".j 
-..,.",
                                                                                      ,.- .---,.
                                                                                            ;:;




                                                                                                                 Heplth Care
                                                                                   CEiVEu                          ancing Administration
                    DEPARTMENT OF HEALTH &. HUMAN SERVlq
                                                                     uir :V L.    I .' I;        .. i 1



      "'nIlIG
                                                                                                                 Memorandum
                                                                                     I6           3: 2


         Date
       SEP I 6 1991
         From

                     Gail R. Wilensky, Ph. D.     q
          Subject    Admistrator
                     OIG Draf Management Adviory Report: " Caer Shopping,
                                                                          " OEI-05- 91-O43

                     Inspector General
                     Offce of the Secreta


                          We have reviewed the subject draf management advory report which
                     descnbes how the Health Cae Financing Admtrtion s (HCFA) current
                     durable medical equipment, prosthetics, orthotics and supplies , (DMEPOS)
                                     point of sale " encourages " caer shopping. " Under the "
                                                                                               point
                     biling policy of "

                               " policy, DMEPOS suppliers bil the Medicae
                     of sale
                                                                                                 caer who        has jurdiction

                     over the site where the medical supplier met with the beneficiar or received
                     the beneficiar s call. " Carrer shopping" refers to the practice of DMEPOS
                     suppliers learg which carrers pay the most for an item, and establihig                                    a

                     billng offce in that caer s         jurisdiction to       maxe              the      supplier s payments

                     from the Medicae program.

                           The report found that the " point                   DMEPOS
                                                                          of sale " billig policy for

                     should be changed. The Offce of Inspector Genera (OIG) recommends that
                     HCFA should have all bill for DMEPOS submitted to the caer havig
                                                                                               " HCF A
                     jurisdiction over the " point of delivery" rather than the "point of sae.
                      agrees that the "point of sale " policy must be changed. However, we do not

                      concur with the OIG recommendation as it is curentl worded. HCFA

                     advocates a policy of ' 'beneficiary residence " rather than " point                       of delivery

                     Our specific comments are attached for your consideration.


                          Than you for the opportunty to review and comment on ths report.

                     Please adve us if you agree with our position on the report s recommendation

                      at your earliest convenience.

                                                                                                           HHS/OIG
                      Attachment	         PDIG                                                     OFFICE OF EVALUATION

                                                                                                                     - ROV

                                          DIG-                                                     AND INc;Pj:T.TI0N
                                          DIG-EI

                                          DIG­
                                                           SEP 25 1991
                                          AIG­

                                          OOO/1G

                                                               V'
                                          EX SEC

                                           DATE SENT 

                                                                    'iIU,
            Comments of the Health Care Financing Admistration
              (HCFA) on the OIG Draft Management Advsory
                   Report - " Carrer   Shopping. "   OEI-05-91-03


Recommendation

The HCF A should have all bils for medical supplies submitted to the       caer
having juridiction over the point of delivery rather than point of sale.


HCFA Response

HCF A agrees that the "point of sale " policy should be chaged. OIG' s report
support the decision that we have made to implement changes in the         caer
jurdicton policy   for   cla for durable medica equipment, prosthetics,
orthotics and supplies (DMEPOS). However, we are concerned that OIG is
using the termology "point of delivery. " We believe a more accurte
description of the policy evaluated by th report is ' 'beneficia residence.
Whe most beneficiares wi have mai and telephone ordered items deliered
to their homes , or the nuring home with which they reside, some companies
deliver to saes outlets, and the beneficiares pick-up the ordered items. Under
the " point of deliery" policy, suppliers could stil manpulate the actual delivery
site. HCF A would concur with thi recommendation, if the term " point of
delivery " was changed to ' 'beneficiar residence.

General Comments

The OIG estimates that $26 miion more was paid in 1989, under the " point of
sale " policy than would have occurred under a "beneficiar residence" policy.
During HCFA' s study on carrer shopping, we estimated that the savigs for
1 year would be $2- 3 mion. We believe that OIG should evaluate the effects
of the followig points and adjust their savigs estimate accrdingl:


         Most of the dierence between HCF A' s and OIG' s savigs figures
         resulted because OIG used the dierence in the average price paid
         per unit by the resident and outside caers for each code.
         However, the unts used by diferent caers for these codes are
         not necessariy comparable. If the units are not equal, a diference
         between the average price paid per unit by the diferent caers
         would not produce meanigfl results.




                                             A­
Page 2


          This methodology also does not tae into accunt the " cap
          placed on the tota amount that ca be paid for dialysis
          supplies per patient per  month. Th proviion, which
          became effective in 199, must be considered when
          developing a " savigs " estimate.

     o OIG' s sample caers for the study were not radomly chosen. To
        project national savigs, the caers chosen for the study should be
          representative of the entire nation.   Alo, the saple size of the
          actua paid clai was too sma.       Onl 1 percent of paid clai
          for caenda year 1989 were usd, and onl 149 national bilg
          codes out of over 1, 500 codes coerig the fu rage of DMEPOS
          were examied. HCF A' s     savigs estite     is based on a 100
          percent saple.
     o Of the 149 coes examined by OIG, 38 are included in the
        prosthetic and ortotic fee schedule. The amounts paid for these
          items are being reduced closer to the national averae amount by
          the litig   price proviions in secion 4153 of the Ombus Budget
          Reconcilation Act of 199. Accrdingly, the new caer
          juriction policy will produce only lited savigs with respect to
          these coes.
          Only 86 coes studied by GIG are for supplies that are neither
          coered by the fee schedule nor subject to capped reimburment.
          In HCF A' s study, paying  clai   for these coes under "beneficiar
          residence " rues rather than " point of sae rues would have
          produced onl $200, 00 in savigs.

          The rage of coes   selected by GIG for study was not appropriate
          beus    the range conta the codes for hemodalysis supplies.
          The high incidence of out-of-State bilg for hemodialysis supplies
          is due to the fact that these supplies are not generally avaable
          except through mail order.   We do not believe these    claishould
          have been included in the study because it is impossible to
          separate the effects of the appropriate out-of-State bilg for these
          supplies and any incidence of " caer shopping.

      o A ' 'bneficiary    residence "
                                     policy would increase payments to many
           small companies,   priarily equipment and prosthetic companes.




                                            A­
..

     no "


                                   OIG Response to ASPE and RCF A comments

            Both ASPE and RCFA concur with our recommendation. We are pleased that we
            have reached agreement on this important policy and that RCF A is planning to
            modify its regulations.

            Both ASPE and RCF A suggested           changing the   wordig of our recommendation    from
             point of delivery"   to ' 'beneficiary residence.   We agree with this suggestion and have
            changed the wordig of our recommendation.

            At our own intiative , we recalculated our cost estimate using the same methodology
            as used by RCFA in its study. This resulted in a more conservative cost estimate of
            $22 milion versus the $26 milion in our original draft report.

            The RCF A had a number of comments regarding our methodology and its resulting
            cost estimate. Primarily, RCFA feels our sample size was inadequate because it did
            not included all DMEPOS procedure codes. The RCF A feels that our sample over
            estimates the extent of the problem. Their Carrer Jurisdiction study estimated that
            savings for one year would be $2- 3 milion if the policy were changed from " point of
            sale " to ' 'beneficiary residence.

            Considerable differences exist between RCF A' s study and our study which could have
            a direct bearing on cost estimates.



                    The RCFA used 1500 DMEPOS RCPCS codes. Many of which are unlikely to
                    be bought out of area. Based on our intervews with the carriers , we targeted
                    the 179 RCPCS acceptable to the Medicare program in the A4000 - A4999
                    procedure code range. We found that 149 of these 179 RCPCS were biled in
                    1989.

                    Analysis of the RCFA study indicates that 24 of the top 100       procedure codes
                    biled to an outside carrer were included in our study. While these 24 codes
                    represent 15. 5percent of dollar volume for the top 100 codes in RCF A' s study,
                    they represent 40. 5 percent of all out of area spending. These numbers also
                    suggest that much of the carrier shopping occurs within the procedure codes we
                    used in our study.



                    Approximately 30 percent of data RCF A collected for its study was classified as
                    outlier data and excluded from RCF A' s analysis because extreme variations in
                    carrier payments existed. Except for 87 line items where we could not identify
                    the carrier for the beneficiary    s residence , no data in the range of codes we
                    studied was excluded from our analysis.

                    The RCFA used 9 months of 1988 claims data. We sampled 12 months of
                    1989 BMA data.



                                                           A­
       When HCF A was unable to identify the benefiCiaries residence they considered
       the claim to have been paid as an in area claim. We excluded cases where we
       were unable to identify the carrier for the beneficiary residence.

The HCFA points out that our selection of carriers was not random. We agree , our
sample of carriers was not randomly chosen. The 11 carriers were chosen solely for
the collection of qualitative data. Their considerable experience in processing medical
supply claims was a valuable source of information for this study. However, we did
not base our estimate of losses on these 11 carriers. Our estimate is based on
statistically valid BMA sample.

The HCF A also believes that ESRD data is over represented in our sample.       Mter
discussing this issue with HCFA personnel , we examined the effect of ESRD patients
on our dollar projections. We found that 19 of the 34 procedure codes listed as
ESRD supplies were paid by the resident carrer in 1989;     they were not out of state
bilings.

The HCF A admits in the executive summary of their study that:

        A total savings of under $5 milion seems unreasonable since during the
       last year over $2 milion in overpayments have been assessed against a
       few urological companies for not complying with carrier jurisdiction
       rules.

Our study did not attempt to project potential dollar savings; our estimate reflects
losses due to the " pointof sale " policy in 1989. We cannot attribute differences in
HCFA' s and our estimates to any single factor. We believe the method we used to
arrive at our projections is valid and stand by our estimate that the Medicare program
lost nearly $22 milion in 1989.




       Carrier Jurisdiction Study, September 1990 , pg 3.

                                          A­
